I
    Memorandum




            o


        Through:
                To:


                 m




          Subject:
                      --
                      -
                       File
                      z*pp0/o/of-

                       Investigative Attor
                              P

                                      1
                                              29 January 1998




                                               '




                       Special ~ ~ e n t - i n - a

                       Case Resolution    4
    Pursuant to a National Parks Service (NPS) investigation, NSF OIG and NPS agents


    pertinent information regarding, or had in any way                    in, efforts to improperly
    remove datolite from national parks. NPS had previously determined that
    used his NSF e-mail address in solicitations for datolite samples and collections.

    After speaking with him, we determined that his datolite activities were unrelated to the
    improper removal of datolite from national parks, In addition, we determined that his
    datolite activities are conducted pursuant to his independent research plan as reported to
                                                                                               had




    NSF, For this reason, his use of his NSF e-mail account for datolite related correspondence is
    permissible.

    Although the NPS investigation remains active, they agreed that there does not appear to be
I
I   any basis for further investigation by NSF. For this reason, this case is closed,
